Audit Report

Office of Justice Programs,
Bureau of Justice Assistance, 
Integrated Justice Information System Grant Awarded to 
Ventura County Sheriff's Department,
Grant Number 2001-DD-BX-0061,
Ventura, California

Report No. GR-90-05-003


October 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Ventura County Integrated Justice Information System (VCIJIS) grant, including one supplement, awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA) to the Ventura County Sheriff's Department (VCSD), located in Ventura, California.  The purpose of this grant is to develop and implement a series of core integrated criminal justice information subsystems that will manage case records for all internal county criminal justice agencies.  As of September 2002, the VCSD was awarded a total of $2,745,600 to develop and implement an integrated criminal justice information system.  We tested the VCSD's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.

At the time of our audit, the VCSD had been reimbursed $1,981,188.  Our audit identified deficiencies with the grant's reporting requirements.  In brief, we found that the VCSD:

Did not ensure that required Financial Status Reports were submitted in a timely manner; and 

	Did not ensure that required progress reports were submitted in a timely manner.

These items are discussed in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix II.